     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



November 28, 2011

Report Number: A-09-11-02059

Ms. Denise Marroni
Chief Financial Officer
Providence Centralia Hospital
413 Lilly Road NE MS-02 W06
Olympia, WA 98506

Dear Ms. Marroni:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Outpatient Billing for Selected Drugs at
Providence Centralia Hospital. We will forward a copy of this report to the HHS action official
noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact
Iman Zbinden, Senior Auditor, at (619) 557-6131, extension 109, or through email at
Iman.Zbinden@oig.hhs.gov, or contact Alice Norwood, Audit Manager, at (415) 437-8360 or
through email at Alice.Norwood@oig.hhs.gov. Please refer to report number A-09-11-02059 in
all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Denise Marroni


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     REVIEW OF MEDICARE
   OUTPATIENT BILLING FOR
      SELECTED DRUGS AT
PROVIDENCE CENTRALIA HOSPITAL




                       Daniel R. Levinson
                        Inspector General

                        November 2011
                        A-09-11-02059
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people aged 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services administers the program.

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered.

Providence Centralia Hospital (Providence) is a not-for-profit hospital located in Centralia,
Washington. Based on data analysis, we reviewed $371,396 in Medicare payments to
Providence for 73 line items for injections of selected drugs that Providence billed to Medicare
during our audit period (April 1, 2008, through February 28, 2011). These line items consisted
of injections for infliximab, pemetrexed, alteplase, trastuzumab, rituximab, paclitaxel,
bevacizumab, bortezomib, and adenosine.

OBJECTIVE

Our objective was to determine whether Providence billed Medicare for injections of selected
drugs in accordance with Federal requirements.

SUMMARY OF FINDINGS

For 20 of the 73 line items reviewed, Providence did not bill Medicare in accordance with
Federal requirements:

   •   For 12 line items, Providence billed the incorrect number of units of service.

   •   For six line items, Providence used the incorrect HCPCS codes.

   •   For one line item, Providence billed for a drug that was not administered.

   •   For one line item, Providence used the combination of an incorrect HCPCS code and the
       incorrect number of units of service.

As a result, Providence received overpayments totaling $44,223. Providence attributed the
overpayments to clerical errors.




                                                i
RECOMMENDATIONS

We recommend that Providence:

   •   refund to the Medicare fiscal intermediary $44,223 in identified overpayments and

   •   ensure compliance with Medicare billing requirements.

PROVIDENCE CENTRALIA HOSPITAL COMMENTS

In written comments on our draft report, Providence provided information on actions that it had
taken to address our recommendations. Providence’s comments are included in their entirety as
the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND .......................................................................................................1
              Medicare Requirements for Outpatient Claims .............................................1
              Selected Drugs ...............................................................................................1
              Providence Centralia Hospital .......................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................3
               Objective ........................................................................................................3
               Scope ..............................................................................................................3
               Methodology ..................................................................................................4

FINDINGS AND RECOMMENDATIONS ......................................................................5

          FEDERAL REQUIREMENTS ..................................................................................5

          INCORRECT BILLING ............................................................................................5

          RECOMMENDATIONS ...........................................................................................7

          PROVIDENCE CENTRALIA HOSPITAL COMMENTS.......................................7

APPENDIX

          PROVIDENCE CENTRALIA HOSPITAL COMMENTS




                                                                    iii
                                             INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Requirements for Outpatient Claims

Medicare guidance requires providers to submit accurate claims for outpatient services. Each
submitted Medicare claim contains detail regarding each provided service (called a line item in
this report). Providers should use the appropriate Healthcare Common Procedure Coding
System (HCPCS) codes and report units of service as the number of times that a service or
procedure was performed or, if the HCPCS code is associated with a drug, the number of units
administered. 1

Selected Drugs

The drugs we reviewed in this audit were pemetrexed, trastuzumab, bevacizumab, rituximab,
infliximab, paclitaxel, adenosine, bortezomib, and alteplase.

Pemetrexed

Pemetrexed is an injectable drug used to treat malignant mesothelioma and certain types of
non-small cell lung cancer. Medicare requires providers to bill one service unit for each
10-milligram injection of pemetrexed. The HCPCS code for this drug is J9305 and is described
as “Injection, pemetrexed, 10 [milligrams].”

Trastuzumab

Trastuzumab is an injectable drug used to treat breast cancer that has progressed after treatment
with other chemotherapy. Medicare requires providers to bill one service unit for each
10-milligram injection of trastuzumab. The HCPCS code for this drug is J9355 and is described
as “Injection, trastuzumab, 10 [milligrams].”

Bevacizumab

Bevacizumab is an injectable drug used to treat a certain type of brain tumor as well as cancers
of the kidney, lung, colon, and rectum. Medicare requires providers to bill one service unit for
each 10-milligram injection of bevacizumab. The HCPCS code for this drug is J9035 and is
described as “Injection, bevacizumab, 10 [milligrams].”



1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                        1
Rituximab

Rituximab is an injectable drug used to treat non-Hodgkin’s lymphoma, chronic lymphocytic
leukemia, and symptoms of adult rheumatoid arthritis. Medicare requires providers to bill one
service unit for each 100-milligram injection of rituximab. The HCPCS code for this drug is
J9310 and is described as “Injection, rituximab, 100 [milligrams].”

Infliximab

Infliximab is an injectable drug used to treat rheumatoid and psoriatic arthritis, ulcerative colitis,
Crohn’s disease, and ankylosing spondylitis. Medicare requires providers to bill one service unit
for each 10-milligram injection of infliximab. The HCPCS code for this drug is J1745 and is
described as “Injection infliximab, 10 [milligrams].”

Paclitaxel

Paclitaxel is an injectable drug used to treat certain types of cancer (e.g., breast cancer, lung
cancer, ovarian cancer, and AIDS-related Kaposi’s sarcoma). Medicare requires providers to bill
one service unit for each 30-milligram injection of paclitaxel. The HCPCS code for this drug is
J9265 and is described as “Injection, paclitaxel, 30 [milligrams].”

Adenosine

Adenosine is an injectable drug used to treat supraventricular tachycardia. Medicare requires
providers to bill one service unit for each 30-milligram injection of adenosine. The HCPCS
code for this drug is J0152 and is described as “Injection, adenosine for diagnostic use,
30 [milligrams].”

Bortezomib

Bortezomib is an injectable drug used to treat multiple myeloma and mantle cell lymphoma.
Medicare requires providers to bill one service unit for each 0.1-milligram injection of
bortezomib. The HCPCS code for this drug is J9041 and is described as “Injection, bortezomib,
0.1 [milligrams].”

Alteplase

Alteplase is an injectable drug used to dissolve blood clots that have formed in the blood vessels
and is used immediately after symptoms of a heart attack or stroke and to treat blood clots in the
lungs. Medicare requires providers to bill one service unit for each 1-milligram injection of
alteplase. The HCPCS code for this drug is J2997 and is described as “Injection, alteplase
recombinant, 1 [milligram].”




                                                  2
Providence Centralia Hospital

Providence Centralia Hospital (Providence) is a not-for-profit hospital located in Centralia,
Washington. Providence’s claims are processed and paid by Noridian Administrative Services,
LLC (Noridian), the Medicare Part A fiscal intermediary.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Providence billed Medicare for injections of selected
drugs in accordance with Federal requirements.

Scope

We reviewed $371,396 in Medicare payments to Providence for 73 line items that we
judgmentally selected as potentially at risk for billing errors during our audit period
(April 1, 2008, through February 28, 2011). These line items consisted of:

       •   38 line items for infliximab totaling $221,567, 2

       •   8 line items for pemetrexed totaling $53,991,

       •   15 line items for alteplase totaling $41,570, 3

       •   2 line items for trastuzumab totaling $13,831,

       •   2 line items for rituximab totaling $12,986,

       •   5 line items for paclitaxel totaling $12,332, 4

       •   1 line item for bevacizumab totaling $12,105,

       •   1 line item for bortezomib totaling $2,182, and

       •   1 line item for adenosine totaling $832.

We identified these payments through data analysis.

We did not review Providence’s internal controls applicable to the 73 line items because our
objective did not require an understanding of controls over the submission of claims. Our review

2
    For 37 line items for infliximab, Providence billed Medicare in accordance with Federal requirements.
3
    For the 15 line items for alteplase, Providence billed Medicare in accordance with Federal requirements.
4
    For one line item for paclitaxel, Providence billed Medicare in accordance with Federal requirements.


                                                            3
allowed us to establish reasonable assurance of the authenticity and accuracy of the data obtained
from the National Claims History file for our audit period, but we did not assess the
completeness of the file.

We conducted our audit from April to September 2011. Our fieldwork including contacting
Providence, located in Centralia, Washington.

Methodology

To accomplish our objective, we:

   •   reviewed applicable Federal laws, regulations, and guidance;

   •   used CMS’s National Claims History file to identify paid Medicare claims for infliximab,
       pemetrexed, alteplase, trastuzumab, rituximab, paclitaxel, bevacizumab, bortezomib, and
       adenosine during our audit period;

   •   used computer matching, data mining, and analysis techniques to identify line items
       potentially at risk for noncompliance with Medicare billing requirements;

   •   identified 73 line items totaling $371,396 that Medicare paid to Providence;

   •   contacted Providence to determine whether the information conveyed in the selected line
       items was correct and, if not, why the information was incorrect;

   •   reviewed documentation that Providence furnished to verify whether each selected line
       item was billed correctly;

   •   calculated overpayments using corrected payment information processed by Noridian;
       and

   •   discussed the results of our review with Providence.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.




                                                4
                          FINDINGS AND RECOMMENDATIONS

For 20 of the 73 line items reviewed, Providence did not bill Medicare in accordance with
Federal requirements:

   •   For 12 line items, Providence billed the incorrect number of units of service.

   •   For six line items, Providence used the incorrect HCPCS codes.

   •   For one line item, Providence billed for a drug that was not administered.

   •   For one line item, Providence used the combination of an incorrect HCPCS code and the
       incorrect number of units of service.

As a result, Providence received overpayments totaling $44,223. Providence attributed the
overpayments to clerical errors.

FEDERAL REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes.

Section 1833(e) of the Act states: “No payment shall be made to any provider of services …
unless there has been furnished such information as may be necessary in order to determine the
amounts due such provider … for the period with respect to which the amounts are being
paid ….”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04 (the Manual), chapter 4,
section 20.4, states: “The definition of service units … is the number of times the service or
procedure being reported was performed.”

The Manual, chapter 17, section 90.2.A, states: “It is … of great importance that hospitals
billing for [drugs] make certain that the reported units of service of the reported HCPCS code are
consistent with the quantity of a drug … that was used in the care of the patient.” If the provider
is billing for a drug, according to chapter 17, section 70, of the Manual, “[w]here HCPCS is
required, units are entered in multiples of the units shown in the HCPCS narrative description.
For example, if the description for the code is 50 mg, and 200 mg are provided, units are shown
as 4 ….”

Chapter 1, section 80.3.2.2, of the Manual states: “In order to be processed correctly and
promptly, a bill must be completed accurately.”

INCORRECT BILLING

For 12 line items reviewed, Providence billed Medicare for the incorrect number of units of
service:


                                                 5
   •   For the eight line items for pemetrexed, Providence billed the incorrect number of units
       of service. Rather than billing from 90 to 120 service units, Providence billed from 150
       to 200 service units. The incorrect billing resulted in overpayments totaling $15,628.

   •   For one line item for trastuzumab, Providence billed the incorrect number of units of
       service. Rather than billing 15 service units, Providence billed 115 service units. The
       incorrect billing resulted in an overpayment of $5,885.

   •   For the one line item for bevacizumab, Providence billed the incorrect number of units of
       service. Rather than billing 130 service units, Providence billed 230 service units. The
       incorrect billing resulted in an overpayment of $5,679.

   •   For one line item for rituximab, Providence billed the incorrect number of units of
       service. Rather than billing 8 service units, Providence billed 16 service units. The
       incorrect billing resulted in an overpayment of $3,961.

   •   For one line item for infliximab, Providence billed the incorrect number of units of
       service. Rather than billing 125 service units, Providence billed 130 service units. The
       incorrect billing resulted in an overpayment of $283.

For six line items reviewed, Providence billed Medicare using the incorrect HCPCS codes:

   •   For one line item for rituximab, Providence billed Medicare using the HCPCS code for
       the administration of rituximab rather than using the HCPCS code for the administration
       of etoposide, the drug actually administered. The incorrect billing resulted in an
       overpayment of $5,721.

   •   For four line items for paclitaxel, Providence billed Medicare using the HCPCS code for
       the administration of paclitaxel rather than using the HCPCS code for the administration
       of oxaliplatin, the drug actually administered. The incorrect billing resulted in
       overpayments totaling $5,512.

   •   For one line item for trastuzumab, Providence billed Medicare using the HCPCS code for
       the administration of trastuzumab rather than using the HCPCS code for the
       administration of bevacizumab, the drug actually administered. The incorrect billing
       resulted in an overpayment of $344.

For the one line item for adenosine, Providence billed Medicare for 15 units of adenosine that
was not administered, resulting in an overpayment of $832.

For the one line item for bortezomib, Providence billed Medicare using the HCPCS code for the
administration of bortezomib rather than using the HCPCS code for the administration of
immune globulin, the procedure actually performed. In addition, rather than billing 70 service
units for this line item, Providence billed 80 service units. The incorrect billing resulted in an
overpayment of $378.



                                                 6
In total, Providence received overpayments of $44,223. Providence attributed the overpayments
to clerical errors.

RECOMMENDATIONS

We recommend that Providence:

   •   refund to the Medicare fiscal intermediary $44,223 in identified overpayments and

   •   ensure compliance with Medicare billing requirements.

PROVIDENCE CENTRALIA HOSPITAL COMMENTS

In written comments on our draft report, Providence provided information on actions that it had
taken to address our recommendations. Providence’s comments are included in their entirety as
the Appendix.




                                               7
APPENDIX
APPENDIX: PROVIDENCE CENTRALIA HOSPITAL COMMENTS
